      Department of Homeland Security





               DHS Needs To Address 

            Portable Device Security Risks 





OIG-12-88                                      June 2012

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5


     Actions Taken To Address the Use and Safeguarding of Portable Devices..................5

     Adherence to Policies and Procedures Is Needed To Account for

      Thumb Drives and Ensure Proper Usage of Portable Devices ...................................6

     Recommendations..........................................................................................................8

     Management Comments and OIG Analysis ..................................................................9


     Security Risks of Portable Devices Must Be Addressed To Safeguard DHS Data ......9

     Recommendation .........................................................................................................18

     Management Comments and OIG Analysis ................................................................18


Appendices
     Appendix A:           Purpose, Scope and Methodology........................................................19

     Appendix B:           Management Comments to the Draft Report .......................................20

     Appendix C:           Major Contributors to this Report........................................................21

     Appendix D:           Report Distribution ..............................................................................22


Abbreviations
     AES                                    Advanced Encryption Standard 

     CIO                                    Chief Information Officer 

     CBP                                    Customs and Border Protection 

     DHS                                    Department of Homeland Security 

     FEMA                                   Federal Emergency Management Agency 

     FIPS                                   Federal Information Processing Standard 

     GPS                                    global positioning system 

     HSDN                                   Homeland Secure Data Network 

     ICE                                    Immigration and Customs Enforcement 

     IT                                     information technology              

     iOS                                    iPhone Operating System 

     MGMT                                   Management Directorate           

     MDM                                    mobile device management 

     NIST                                   National Institute of Standards and Technology

     ROB                                    rules of behavior 

     SMS                                    short message service 

     TSA                                    Transportation Security Administration          

     USB                                    Universal Serial Bus 

     USCG                                   United States Coast Guard 

     USCIS                                  United States Citizenship and Immigration Services 

     Wi-Fi                                  Wireless Fidelity

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                We reviewed the effectiveness of the Department of Homeland
                Security’s (DHS) efforts to secure and deploy portable devices on
                DHS networks and to maintain and dispose of these devices.
                Portable devices included tablet computers and smartphones that
                are based on Android, iPhone Operating System, Web Operating
                System, and Windows Operating Systems, as well as Universal
                Serial Bus thumb drives. Specifically, we evaluated whether
                (1) adequate policies and procedures have been implemented,
                (2) DHS maintains an accurate inventory of its portable devices,
                and (3) effective controls have been implemented to protect the
                information stored or processed on portable devices. Additionally,
                we reviewed security authorization packages of systems using
                portable devices for compliance with applicable policies.

                DHS has taken actions to govern, track, categorize, and secure
                portable devices. Specifically, DHS and its components have
                developed policies, procedures, and training regarding the use of
                portable devices. Additionally, some components include portable
                devices as part of their accountable personal property inventory.

                However, DHS still faces challenges in using these devices to carry
                out its mission and increase the productivity of its employees. For
                example, components must develop policies and procedures to
                govern the use and accountability of portable devices. Further, we
                determined that unauthorized Universal Serial Bus devices had
                been connected to the workstations at selected components.
                Finally, DHS must implement controls to mitigate the risks
                associated with the use of portable devices and to protect the
                sensitive information that these devices store and process.

                We are making three recommendations to the Chief Information
                Officer. The Chief Information Officer concurred with all
                recommendations and has begun to take actions to implement them.
                The Department’s responses are summarized and evaluated in the
                body of this report and included, in their entirety, as appendix B.




                 DHS Needs To Address Portable Device Security Risks

                                       Page 1
Background
             Portable devices, such as Universal Serial Bus (USB) thumb
             drives, Apple iPhone Operating System (iOS) and Google
             Android-based smartphones and tablet computers with wireless
             Internet access and touch screen features have become increasingly
             popular with today’s highly mobile workforce. These devices
             allow employees to perform their tasks at any time and from any
             place, as well as transport large volumes of data efficiently.
             Additionally, employees use these portable devices to send and
             receive electronic mail, browse the Internet, edit documents,
             deliver presentations, and access data remotely. Figure 1 depicts
             examples of various portable devices.




             Figure 1: Examples of portable devices.

             Although portable devices may improve productivity, they also
             expose the Department to new security risks, such as downloading
             viruses or inadvertently exposing sensitive information or
             personally identifiable information. In addition, portable devices
             typically lack a number of security features that can be found on
             desktop computers. Security threats to portable devices include


             DHS Needs To Address Portable Device Security Risks

                                     Page 2
                         loss or theft, unauthorized access to networks or data, electronic
                         eavesdropping, and electronic tracking of users.

                         Additionally, Android- and iOS-based smartphones and tablet
                         computers were designed primarily for consumers; they lack the
                         functionality and security features needed to be centrally managed
                         in an enterprise or government environment. Unlike Blackberry
                         smartphones, these devices cannot be managed easily without a
                         third-party application. Further, the Android- and iOS-based tablet
                         computers are not designed to use the Federal Information
                         Processing Standard (FIPS) 201-compliant Personal Identity
                         Verification card to establish two-factor authentication for
                         accessing Federal information systems without an accessory or
                         attachment. 1

                         To improve the mobility of its workforce, DHS and its components
                         are evaluating the feasibility of integrating these consumer-
                         oriented portable devices into their networks. For example, the
                         Federal Emergency Management Agency (FEMA), Immigration
                         and Customs Enforcement (ICE), and Transportation Security
                         Administration (TSA) are currently pilot testing Android- and iOS­
                         based devices to determine whether they can be used to meet the
                         needs of the mobile workforce without compromising security.
                         The United States Coast Guard (USCG) has begun to deploy
                         Android- and iOS-based smartphones to its workforce. Finally, the
                         United States Citizenship and Immigration Service (USCIS) is
                         exploring iPads and Blackberry Playbooks as potential platforms
                         for its senior officials. Since each component has a different
                         mission, their needs and requirements for using and securing the
                         devices vary. During our fieldwork, we did not identify any
                         components considering or implementing the WebOS-based
                         devices. Figure 2 lists the portable devices that the components are
                         using.




1
  OMB Memorandum 05-24, “Implementation of Homeland Security Presidential Directive 12 – Policy for
a Common Identification Standard for Federal Employees and Contractors,” requires the development and
agency implementation of a mandatory, government-wide standard for secure and reliable forms of
identification for Federal employees and contractors.



                          DHS Needs To Address Portable Device Security Risks

                                                Page 3
             COMPONENT               SMARTPHONES AND TABLETS                         THUMB DRIVES
                                                                                  Ironkey, Acomdata,
                                                                                  Aegis, Apricon, Axiom,
                                Fujitsu Lifebook, Panasonic Toughbook Tablet,     Cruzer, Edge, Flash
                                Blackberry Playbook, Hewlett-Packard Slate        Drive 2G, Kanguru,
                   CBP
                                500, iPad, Stylist Q550 Tablet, and CL900         SanDisk, SanDisk
                                Motion Tablet                                     Cruzer, Stealth MXP,
                                                                                  Verbatim, and Western
                                                                                  Digital
                  FEMA          iPads and iPhones                                 Ironkey
                                                                                  McAfee Encrypted,
                   ICE          Androids, iPads and iPhones                       Ironkey, and Stealth
                                                                                  MXP
                                iPhones, Samsung Focus, iPads, Motorola
                                Atrix, Motorola Droid, LG Fathom, Companion
                                ePad, Motorola Xoom, Blackberry Torch,            Kingston Data Traveler
                   TSA
                                Hewlett-Packard Slate 500, Blackberry             5000
                                Playbook, MacBook AIR and Pro, and
                                Mi-Fi Verizon
                                iPads, Blackberry Playbooks, and Samsung          Ironkey, Kingston, and
                  USCIS
                                Tablets                                           Integral
                                                                                  USCG does not allow
                                iPhones, Androids, HTC Evo View Tablet,
                  USCG                                                            thumb drives unless
                                Samsung Galaxy Tablet, and Motorola Xoom
                                                                                  waiver is approved.
                 Figure 2: Portable devices used

                          Through these pilot programs, DHS and its components are
                          evaluating technical solutions, such as a virtual private network or
                          a mobile device management (MDM) solution, to secure and
                          manage these devices in an enterprise environment. 2 For example,
                          FEMA, ICE, TSA, and USCG are using the Good Technology
                          MDM solution to provide configuration management and
                          encryption to these emerging portable devices. 3 Although
                          Customs and Border Protection (CBP) had tested the MDM
                          solution to manage its Android- and iOS-based smartphones and
                          tablet computers, it is now testing the use of Microsoft Active
                          Directory to manage these devices through its group policy.
                          Figure 3 depicts connectivity avenues and encryption methods for
                          portable devices. 4

2
  An MDM solution secures, monitors, and manages mobile devices deployed across the enterprises.
MDM functionality typically includes over-the-air distribution of applications, data, and configuration
settings for all types of mobile devices, including mobile phones, smartphones, and tablet computers.
3
  The Good Technology MDM solution offers a securely contained “sandbox” environment through the use
of FIPS 140-2 certified encryption using the Advanced Encryption Standard (AES) algorithm. This secure
container uses a 192-bit encryption key to help protect data transmitted over the air and stored on the
devices.
4
  A sandbox architecture provides an isolated portion of the portable device resources for applications to
run. Most access to the device’s resources is usually disallowed. Also, the architecture restricts the
device’s ability to alter or read data outside its specific self-contained environment.



                           DHS Needs To Address Portable Device Security Risks

                                                   Page 4
          Figure 3: Connectivity avenues and encryption methods for devices

                   The MDM solution provides the capability to centrally manage
                   configuration settings and allows administrators to restrict access
                   to integrated capabilities of the portable devices, such as the
                   camera and Bluetooth. Additionally, data stored in the secure
                   environment do not mix with data outside of the sandbox
                   container, which minimizes potential data loss or leakage.

                   As the popularity of portable devices grows, new security threats
                   are introduced constantly and portable device architectures pose
                   new technical and policy issues that must be addressed. For
                   example, a 400 percent increase in Android malware has been
                   identified since the summer of 2010. Further, increasing security
                   vulnerabilities have been identified in Android-based products,
                   which may allow unauthorized access to sensitive information.


Results of Audit
     Actions Taken To Address the Use and Safeguarding of Portable
     Devices
          DHS and its components have taken actions to track and promote the use
          of portable devices in support of their missions. Specifically, they have



                   DHS Needs To Address Portable Device Security Risks

                                           Page 5
     undertaken a number of efforts to mitigate security risks posed by portable
     devices:

        •	 FEMA, TSA, and USCG have developed specific portable device
           policies and procedures and aligned them with DHS guidance. For
           example, they have developed specific rules of behavior (ROB) for
           portable devices. TSA has developed a Mobile Computing Test
           Devices ROB specific for testing portable devices.

        •	 CBP, FEMA, ICE, TSA, and USCIS use an asset management
           system to record and track inventory of sensitive items, such as
           smartphones, tablet computers, and thumb drives.

        •	 CBP, FEMA, TSA, and USCG provide specific training on the
           acceptable use of portable devices to their users, in addition to
           general information technology (IT) security awareness. This
           ensures that users have a full understanding of use, management,
           accountability, and incident response in the event that a device is
           lost or stolen.

     Although DHS and its components have taken actions to mitigate the risks
     associated with using portable devices, the Department still faces
     challenges in deploying these devices to carry out its mission as well as to
     improve the productivity and mobility of its employees. Additionally,
     components must develop policies and procedures to govern the use and
     improve the accountability of portable devices. Finally, DHS must
     implement security controls to safeguard the portable devices and the
     sensitive information stored on and processed by these devices.


Adherence to Policies and Procedures Is Needed To Account for
Thumb Drives and Ensure Proper Usage of Portable Devices
     Components are not adhering to DHS policies and procedures regarding
     the inventory of USB thumb drives, nor are they consistently signing ROB
     prior to issuing equipment. Specifically, CBP, TSA, and USCIS do not
     categorize USB thumb drives as a sensitive asset. Additionally, some
     components have issued portable devices to their users without signed
     ROB. Further, some components have not developed policies specific to
     portable devices, such as thumb drives, and protecting the data that they
     process and store. As a result, USB thumb drives are inconsistently
     accounted for in the components’ asset management systems.




             DHS Needs To Address Portable Device Security Risks

                                   Page 6
Sensitive Assets Are Not Accurately Categorized

Three components do not track their USB thumb drives as
sensitive assets as required by DHS guidance. DHS requires
sensitive assets, such as personal computing devices and USB
thumb drives, to be recorded in a personal property system. DHS
guidance defines sensitive personal property, regardless of dollar
value, as devices that have data storage capability, are inherently
portable, can easily be converted to private use, or have a high
potential for theft. Specifically, CBP, TSA, and USCIS do not
include USB thumb drives in their asset management systems. As
a result, these components do not accurately categorize USB
thumb drives, which may put their sensitive data at risk.

According to component officials, they did not define and
categorize USB thumb drives as sensitive property assets because
of the cost and size of these devices. Since USB thumb drives
usually cost less than the $5,000 personal property threshold, they
do not meet the requirements to qualify as accountable property.
Additionally, according to CBP and USCIS officials, since their
USB thumb drives are encrypted and inexpensive, they did not
think that it would be necessary to inventory these devices. USCIS
officials added that they believed it was not logistically efficient to
record them in their asset management system. If USB thumb
drives are lost or stolen, according to USCIS officials, the property
custodians would have to prepare paperwork, get it signed, and add
it to the asset management system to fully record the loss. USCIS
property custodians and IT staff are currently considering whether
to track USB thumb drives as accountable property.

Component asset management systems use serial numbers to
inventory and track sensitive items such as smartphones, tablet
computers, and USB thumb drives. However, only FEMA and
ICE record all USB thumb drives in their asset management
systems.

Policies establish internal controls to ensure accountability and
protect against fraud, waste, and abuse of government data and
property. Further, proper accounting of USB thumb drives enables
DHS and its components to effectively use, maintain, protect,
transfer, and dispose of their property.




DHS Needs To Address Portable Device Security Risks

                      Page 7
    Rules of Behavior Are Not Consistently Signed Prior to Issuing
    Portable Devices at Components

    DHS and its components are not consistently using ROB to remind
    users to safeguard portable devices and data. Specifically, ROB
    inform users of their responsibilities and acceptable behaviors
    while accessing DHS data on portable devices. Since ROB are not
    reviewed annually, users may not exercise due care and
    accountability in using, handling, transporting, and storing
    government data and property. For example, FEMA and TSA rely
    heavily on the use of ROB to inform users of their responsibilities
    and the prohibited activities when using portable devices. We
    determined that 9 of 10 FEMA and 7 of 7 TSA selected users
    signed the required ROB. However, 9 of the 10 ICE users selected
    did not sign a separate ROB upon receipt of their portable device.
    Although users signed an ROB when they first accessed the
    system, they did not recertify when they received additional
    equipment.

    DHS requires that users be trained regarding acceptable behaviors
    and that each user sign an ROB prior to being granted user accounts
    or access to information systems or data. Additionally, the ROB
    applies to employees using DHS systems and IT resources, such as
    portable devices, to access, store, receive, or transmit sensitive
    information.

    Policies and procedures, such as ROB, specific to portable devices
    would strengthen employee awareness of appropriate and effective
    device usage. Additionally, recertifying employees’ ROB annually
    would remind employees of their responsibilities. Further, the
    ROB can serve as an additional training mechanism to protect the
    portable device and its sensitive data.


Recommendations
    We recommend that the Chief Information Officer (CIO):

    Recommendation #1: Coordinate with the Chief Administrative
    Officer and component CIOs to update their asset management
    policies to ensure that USB thumb drives are recorded as sensitive
    personal property. In addition, components should record USB
    thumb drives as sensitive personal property in their asset
    management systems.



     DHS Needs To Address Portable Device Security Risks

                           Page 8
            Recommendation #2: Enhance the Department’s annual IT
            security awareness training to remind users of their
            responsibilities, acceptable behaviors, and associated risks when
            using government-issued portable devices.


     Management Comments and OIG Analysis
            DHS concurred with recommendation 1. The CIO will coordinate
            with the Office of the Chief Administrative Officer and the
            component CIOs to ensure that their asset management policies are
            updated to require that USB thumb drives are recorded as sensitive
            personal property as required by DHS Personal Property
            Management Directive. In addition, component CIOs will
            implement a process to record USB thumb drives as sensitive
            personal property in their asset management systems.

            We agree that the steps DHS has taken, and plans to take, begin to
            satisfy this recommendation. This recommendation will remain
            open until DHS provides documentation to support that all planned
            corrective actions are completed.

            DHS concurred with recommendation 2. The CIO will ensure that
            the Department’s annual IT security awareness training is
            enhanced to remind users of their responsibilities, acceptable
            behaviors, and associated risks when using government-issued
            portable devices.

            We agree that the steps DHS has taken, and plans to take, begin to
            satisfy this recommendation. This recommendation will remain
            open until DHS provides documentation to support that all planned
            corrective actions are completed.


Security Risks of Portable Devices Must Be Addressed
To Safeguard DHS Data
     The growing popularity and use of portable devices have introduced new
     security concerns for DHS and its components. For example, DHS has not
     developed detailed configuration settings for Android- and iOS-based
     portable devices. Also, components are not consistently applying the
     required encryption on portable devices. In addition, components have not
     fully implemented the required DHS security settings. Further, components



            DHS Needs To Address Portable Device Security Risks

                                  Page 9
                 are using potentially insecure integrated functions that are required for
                 their mission. Unless these issues are addressed, they may pose a security
                 risk to the Department’s data if security controls are inadequate.

                          Consumer Devices Pose Security Challenges

                          Although Android- and iOS-based devices offer many sought-after
                          features in the consumer market, these devices can create unique
                          security concerns for DHS and its components due to their
                          consumer-oriented nature. For example, integrated features, such
                          as Bluetooth, global positioning system (GPS), camera, Internet
                          access, and text messaging, are consumer-demanded functions that
                          can become avenues of attack to gain unauthorized access to DHS
                          data. Currently, a third-party MDM application is needed to
                          provide the required FIPS 140-2 encryption for data transmission.
                          However, the MDM application has limited capability to fully
                          implement DHS required security controls.

                          DHS has developed guidance for configuring portable devices
                          (i.e., user authentication, encryption, antivirus software, remote
                          wipe capability, disabling unneeded integrated functions).
                          However, the Department lacks specific detailed configuration
                          settings needed to mitigate the unique security risks associated
                          with the Android- and iOS-based architectures.

                          Encryption of Portable Devices

                          Android- and iOS-based devices are not currently FIPS 140-2
                          certified to transmit data as required by DHS. The use of these
                          devices, which do not meet the required government encryption
                          standards, poses security risks on DHS networks. For example, the
                          MDM solution encrypts data stored on the device as long as the
                          data are within the container, and implements this same encryption
                          on data transmitted from the container. A limitation of the current
                          MDM solution is that it is not possible to centrally enforce local
                          encryption on Android- or iOS-based devices. 5

                          The DHS components we reviewed are not consistently using
                          encryption to protect sensitive data stored on and processed by

5
 Apple iOS devices provide encryption of local data with AES-256 bit encryption on the iPhone 3GS
model or higher, and all iPad models as long as the user authenticates to the device. Google Android
devices with operating system version 3.0 or higher have the manual option of turning on encryption that
uses AES 128-bit encryption. The use of higher bit encryption increases computational time and effort
needed by the device, but helps protect the data for a longer period.



                           DHS Needs To Address Portable Device Security Risks

                                                 Page 10
                           portable devices. For example, ICE and USCG have not enabled
                           local encryption on their Android devices. As a mitigating control,
                           USCG user policy requires that all data processed by a portable
                           device must be kept in the MDM container. To enable local
                           encryption on Android devices is a time-consuming process, as it
                           requires USCG and ICE to configure each device manually. In
                           addition, ICE does not enforce user authentication on iOS devices,
                           which disable forced encryption by the operating system. Also,
                           ICE has yet to develop a user policy that requires all data to be
                           kept within the MDM container solution. Any sensitive data
                           stored outside the MDM solution could be in an unencrypted space
                           and might be vulnerable to unauthorized access. To protect their
                           sensitive data, FEMA and TSA have implemented the iOS devices
                           through the use of the MDM solution to meet DHS encryption
                           requirements.

                           CBP is testing a tablet form-factor with Windows 7 installed,
                           through the use of Microsoft BitLocker technology. CBP has
                           encrypted data on the device, and has secured data in transmission
                           through a virtual private network connection.6 This virtual private
                           network connection requires two-factor authentication and
                           integrates with Active Directory for user validation while
                           establishing a Wireless Fidelity (Wi-Fi) or cellular connection.

                           Data stored on wireless portable devices must be encrypted by
                           securing either the individual files or the file system using the
                           National Institute of Standards and Technology (NIST) validated
                           encryption scheme (i.e., FIPS-197 AES algorithm). Additionally,
                           wireless portable devices must utilize products or modules with
                           NIST FIPS 140-2 compliant encryption when synchronizing
                           wirelessly.

                           Configuration Management of Portable Devices

                           Components have not fully implemented DHS configuration
                           management guidance on portable devices. Instead, they have
                           implemented component-specific settings on their devices.
                           Discrepancies occur in the authentication controls and complexity
                           of passwords, location for first authentication on either the local
                           device or secure container, and the idle-timeout period for
                           inactivity. Without fully implementing DHS configuration

6
 BitLocker is an encryption function of Microsoft Windows operating systems that, once enabled, allows
full disk encryption. This includes the operating system itself, the Windows registry, temporary files, and
hibernation file. In addition, a BitLocker add-on can encrypt removable media such as USB thumb drives.



                           DHS Needs To Address Portable Device Security Risks

                                                  Page 11
guidance, components cannot ensure that their devices are
protected from potential exploits.

Since the MDM solution does not fully address all DHS
configuration management guidance requirements, components are
unable to fully implement DHS security settings. For example, the
MDM application cannot enforce the use of special characters to
access the local Android-based device. Across the components we
reviewed, there is no standard implementation of special character
use for complex passwords. USCG has not enforced special
character use for complex passwords for any user authentication,
including both local and sandbox locations on Android and iOS
devices. CBP, FEMA, and ICE have implemented special
characters when users authenticate, but TSA has not implemented
special characters on its iOS devices.

Without the detailed DHS configuration settings, components are
authenticating users at different levels of the devices at either the
local or sandbox level. We identified the following discrepancies:

   •	 TSA and USCG require authentication locally to the device
      and at the secure container level. DHS requires that users
      authenticate when the device is powered on to be granted
      access.

   •	 FEMA requires users to authenticate to the local device but
      does not require users to authenticate a second time to the
      secure container on its iOS devices.

   •	 ICE enforces strong passwords at the sandbox, but there is
      no authentication to access the local Android and iOS
      devices. The lack of authentication and password
      enforcement may allow unauthorized individuals to gain
      access to DHS data stored on the local device.

DHS requires a 10-minute idle-timeout for portable devices, after
which users must re-authenticate to revalidate their identity. While
ICE has implemented an idle-timeout of 20 minutes on its MDM
solution, the component has not implemented the timeout feature
on its Android- and iOS-based devices. FEMA and TSA have
implemented a less stringent 15-minute idle-timeout limit.
According to CBP personnel, it is in the process of submitting a
waiver to account for its 15-minute idle-timeout, which currently is
in place for network timing alignment. USCG, with its Android



DHS Needs To Address Portable Device Security Risks

                     Page 12
                           and iOS device policies, has enforced a more stringent 5-minute
                           idle-timeout.

                           DHS requires that wireless portable devices, such as smartphones
                           and tablets, be distributed and configured with an approved
                           baseline configuration. The baseline configuration guidance
                           includes authenticating before access is granted to the device. In
                           addition, passwords protecting the devices must have a minimum
                           of eight characters and a combination of both alphanumeric and
                           special characters.

                           The ability to centrally manage and enforce a standard configuration
                           setting is vital to assure components of a standard baseline for
                           security. The lack of a standard configuration for its portable
                           devices could expose DHS sensitive data to potential attacks. Not
                           authenticating at the local device could allow unauthorized users to
                           gain access to DHS data stored on the local device.

                           Remote Wipe of Data Capability Is Vital To Protect Data

                           The lack of centrally executable built-in remote wipe capability
                           may put DHS data at risk if a portable device is lost or stolen.
                           Currently, a third-party MDM solution is needed to invoke a
                           remote wipe command to erase data stored on the devices. This
                           function can wipe the device, including storage cards or sandbox
                           data, to prevent unauthorized disclosure. In addition, the MDM
                           solution offers the capability to enforce compliance rules and
                           restricts users from installing applications on the devices.
                           Compliance rules verify that the device operating system version,
                           device model, account inactivity, and MDM client are within the
                           component-selected parameters. If a device is found to be
                           “jail-broken,” or in violation of a compliance rule, it will
                           automatically be wiped either at the sandbox or the local device. 7
                           Compliance rules and jail-break detection function can be checked
                           at specified intervals.

                           The components we visited that use the MDM solution have
                           implemented remote wipe, compliance rules, and the jail-break
                           detection function to ensure that the standard configuration does
                           not change. Without these capabilities, managers cannot be
                           assured that the devices have not been altered without their


7
 Jail-breaking is the act of installing a file to open the operating system so unauthorized third-party
applications can be installed. It also allows the user to customize the device.



                            DHS Needs To Address Portable Device Security Risks

                                                    Page 13
                            knowledge or consent, or help protect DHS data from unauthorized
                            access.

                            Integrated Functions Cause Security Concerns

                            Components are using potentially insecure integrated functions in
                            using portable devices to support their missions. While integrated
                            functions (e.g., camera, GPS, Bluetooth) on mobile devices can
                            improve mobility and add functions, they can also expose DHS
                            sensitive data to potential exploits and pose privacy concerns. For
                            example, components are using integrated, potentially unencrypted
                            features, such as Bluetooth, camera, and GPS. Other features that
                            can be used for limited personal use include unfiltered Internet
                            access and short message service (SMS) (i.e., text messaging).
                            These integrated functions are potentially insecure and can put
                            DHS data confidentiality and integrity at risk. Figure 4 lists the
                            integrated built-in functions used at the components:

                            Component            Devices           Bluetooth         Camera 8       Wi-Fi
                               CBP             Windows 7               X                X            X
                              FEMA                 iOS                 X                X            X
                               ICE            Android, iOS             X                X            X
                               TSA                 iOS
                              USCG            Android, iOS                               X
                            Legend: "X" denotes functions that are enabled.
                            Figure 4: Enabled integrated functions

                            Component officials said that some integrated functions, such as
                            Bluetooth, are required to allow mobile hands-free calling to
                            reduce the dangers of text messaging while driving. 9 In addition,
                            they said that the use of a built-in camera can reduce the amount of
                            equipment that inspectors and investigators have to carry when
                            conducting official business, as well as cut costs. Lastly,
                            component officials said that Wi-Fi connectivity is needed to
                            reduce the cost of cellular use to transmit data.

                            DHS requires that functions that cannot be encrypted using
                            approved cryptographic modules shall not be used to process,
                            store, or transmit sensitive information. In addition, SMS shall not
                            be used to process, store, or transmit sensitive information, and
                            shall be disabled whenever possible. Integrated capabilities, such
                            as cameras and recording mechanisms, pose significant levels of

8
    The MDM solution does not have the capability to enable or disable the camera on Android devices.
9
    A result of Executive Order 13513, signed in October 2009.



                             DHS Needs To Address Portable Device Security Risks

                                                   Page 14
                          risk and should be disabled, unless specifically required, in order to
                          mitigate the risk of exposing sensitive information.

                          These integrated functions are consumer-oriented and are not
                          located within the secure MDM solution. Using potentially insecure
                          functions may expose sensitive data to unauthorized access.

                          Consideration of security in the system development life cycle is
                          essential as DHS and its components are evaluating the feasibility
                          of integrating these consumer-oriented portable devices into their
                          networks. To accomplish this, security must be made an integral
                          part of the testing performed as new features and functionality are
                          introduced into a system. As stated in applicable guidance, to be
                          most effective, security controls must be integrated into the
                          information system from its inception. Including security controls
                          early in the information system development life cycle will result
                          in less expensive and more effective security than adding it to an
                          operational system.

                          USB Protective Measures

                          DHS and its components have not implemented effective controls
                          to restrict unauthorized devices from being connected to DHS’
                          unclassified systems. However, the Department has implemented
                          an effective technical solution to ensure that only authorized
                          personnel can use USB devices on its enterprise-wide “Secret”
                          classified network.

                          Unauthorized USB Connected to Unclassified Networks

                          Unauthorized USB devices have been connected to DHS networks.
                          We conducted technical scans to determine whether unauthorized
                          USB storage devices have been connected to DHS computers at
                          ICE, Management Directorate (MGMT), TSA, and USCG. 10 Our
                          scans identified unauthorized devices in all components reviewed.
                          Most devices identified were connected between 2010 and early
                          2012. The use of unauthorized devices to store sensitive data can
                          lead to unauthorized access when the devices are not encrypted.
                          Figure 5 lists examples of unauthorized devices identified.

10
  We used the National Security Agency’s developed USB Detect software to determine if unauthorized
devices have been connected to DHS and its components’ networks. This tool queries registry keys within
the Windows operating system and records mass storage devices that have been inserted in the targeted
computers. The tool gives a historical view from the time the operating system image was installed to the
present, and can identify if devices were properly installed by the operating system, or denied.



                           DHS Needs To Address Portable Device Security Risks

                                                 Page 15
                                                                          Examples of Unauthorized
             Component                   Authorized Devices
                                                                             Devices Identified

                                                                     Amazon Kindle E-Book Reader
                                                                     Apple iPod
                                  McAfee Encrypted Drive             Nike Sportwatch GPS Unit
                 ICE              IronKey S200 & D200                Digital Picture Frame
                                  Stealth MXP                        Best Buy Geek Squad U3 USB Drive
                                                                     SanDisk Cruzer USB Drive
                                                                     Sony Storage Mass Media

                                                                     Apple iPod
                                  Outbacker MXP                      Imation USB Flash Drive
                                  Stealth MXP                        Corsair Voyager USB Flash Drive
               MGMT               McAfee Encrypted Drive             SanDisk Cruzer Micro SD card
                                  IronKey S200 & D200                Sony Storage Mass Media
                                  Kingston DataTraveler 5000         Western Digital External Hard Drive
                                                                     LaCie ED Mini External Hard Drive

                                                                     Garmin Nuvi GPS Unit
                                                                     Apple iPod
                 TSA              Kingston DataTraveler 5000         SanDisk Cruzer
                                                                     Seagate FreeAgent Go Hard Drive
                                                                     Best Buy Geek Squad U3 USB Drive

                                                                     Apple iPod
                                  No Flash Media                     Garmin Nuvi GPS Unit
                USCG              unless waiver approved             Digital Picture Frame
                                                                     HTC Android Phone USB Device
       Figure 5: Unauthorized devices identified

                             ICE, MGMT, TSA, USCIS, and USCG officials said that currently
                             they cannot prevent unauthorized devices from being connected to
                             their workstations. 11 Instead, components rely on a multitier
                             process that includes authorizing, procuring, and distributing only
                             specific encrypted USB drives, and educating users, through
                             awareness training, not to connect unauthorized devices to
                             government computers.

                             DHS prohibits the use of nongovernment-issued removable media,
                             such as USB drives, to store DHS sensitive information. In
                             addition, DHS requires that all USB drives be encrypted to protect
                             sensitive data stored on these devices.



11
     We did not conduct scans at USCIS to determine use of unauthorized devices.



                              DHS Needs To Address Portable Device Security Risks

                                                           Page 16
Recognizing the risks of using USB thumb drives, ICE, MGMT,
and USCG have begun to deploy a technical solution to prevent the
use of unauthorized devices that may put DHS data at risk. For
example, a technical solution can be configured to restrict certain
USB and other devices from connecting to DHS computers based
on vendor and product identification number, as well as other
attributes. ICE, MGMT, and USCG have started a three-phase
approach to implement this technical solution:

   •	 Phase 1: Monitoring network to identify the devices;

   •	 Phase 2: Constructing the authorized and unauthorized
      device lists based on the information that is collected
      during Phase 1;

   •	 Phase 3: Implementing prevention of unauthorized 

      devices.


Currently, ICE, MGMT, and USCG are in Phase 1, and are about
to begin Phase 2. TSA officials indicated that they had developed
a written policy but did not have any technical means to prevent
this type of unauthorized device use.

Protective Measures Taken on Classified Network

The Department has taken protective measures on the classified
network to allow only authorized personnel to use USB devices.
We conducted a review of the DHS enterprise-wide “Secret”
classified network, Homeland Secure Data Network (HSDN). We
determined that DHS has implemented a technical solution, a type
of continuous monitoring, that restricts the use of USB devices
based on authorized user accounts and is integrated with Active
Directory. If a user not authorized to use USB thumb drives
inserts a USB device into the network, the technical solution
denies use, logs the event, and sends a notification to the HSDN
Security Operations Center. HSDN relies on the same multi-tier
process that the components use for USB devices to ensure that
they are encrypted and authorized. For logging purposes, the
technical solution records the file path and file name of data moved
to USB devices.

The continuous monitoring solution implemented on HSDN can
prevent the use of unauthorized devices, including USB devices,
writing to discs, Bluetooth connections, and others from



DHS Needs To Address Portable Device Security Risks

                     Page 17
     connecting and being used. The solution can be configured to
     allow only certain approved USB and other devices to be installed,
     based on vendor and product identification number and other
     attributes, or to allow only certain approved users to install
     devices. In addition, this solution can tag data and can then restrict
     data movement based on these tags.

     A continuous monitoring program for enforcement of USB device
     use can help prevent data loss and unauthorized disclosure. It will
     also allow DHS to be more cognizant of threats and weaknesses in
     its network and help gain a more secure infrastructure.


Recommendation
     We recommend that the CIO:

     Recommendation #3: Work with the ICE CIO to ensure
     compliance with DHS guidance on authentication requirements for
     Android and iOS devices.


Management Comments and OIG Analysis
     DHS concurred with recommendation 3. The CIO will work with
     the ICE CIO to ensure compliance with DHS guidance on
     authentication requirements for Android- and iOS-based devices.
     Currently, Android- and iOS-based devices are being piloted for
     possible formal implementation. If ICE decides to formally
     implement either device, it will be required to comply with the
     appropriate DHS guidance on authentication requirements for the
     device selected.

     We agree that the steps DHS has taken, and plans to take, begin to
     satisfy this recommendation. This recommendation will remain
     open until DHS provides documentation to support that all planned
     corrective actions are completed.




     DHS Needs To Address Portable Device Security Risks

                          Page 18
Appendix A
Purpose, Scope, and Methodology

                   The objective of our audit was to determine the effectiveness of
                   DHS’ efforts to secure and deploy portable devices on DHS
                   networks and to maintain and dispose of these devices.
                   Specifically, we evaluated whether (1) adequate policies and
                   procedures have been developed, (2) DHS maintains an accurate
                   inventory of its portable devices, and (3) effective controls have
                   been implemented to protect the information stored or processed
                   on portable devices. Additionally, we reviewed security
                   authorization packages of systems using portable devices for
                   compliance with applicable DHS, Office of Management and
                   Budget, and NIST requirements.

                   Our review focused on portable devices such as tablet computers
                   and smartphones that are based on Apple iOS, Google Android,
                   and Windows operating systems, as well as USB thumb drives.
                   We excluded laptop computers and Blackberry smartphones from
                   this audit. Our review was based on the requirements outlined in
                   The Homeland Security Act (2002), the DHS 4300A Sensitive
                   Systems Handbook, NIST Special Publications, and FIPS
                   guidance. We reviewed DHS as well as component policies and
                   procedures and inventory records and practices. We interviewed
                   selected DHS officials from CBP, DHS MGMT, FEMA, ICE,
                   TSA, USCG Headquarters – CG6, and USCIS. We performed
                   technical reviews of USB detection capabilities at DHS
                   Management, ICE, TSA, and USCG. We performed technical
                   reviews of portable device management controls at CBP, FEMA,
                   ICE, TSA, and USCG Headquarters – CG6. Additionally, we
                   interviewed officials from the Department of Veterans Affairs, and
                   private sector portable device security experts.

                   We conducted this performance audit between September 2011
                   and March 2012 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.

                   The principal OIG point of contact for the audit is Frank W. Deffer,
                   Assistant Inspector General, Information Technology Audits, at
                   (202) 254-4041.



                   DHS Needs To Address Portable Device Security Risks

                                        Page 19
Appendix B
Management Comments to the Draft Report



                                                                                Off'" til Me eN" fll/rmrratitHI Officer
                                                                                U.S.In!)llrtmU I ofllOlTltllad Se<.rtcy
                                                                                W..... i.ctoll. DC 10513



                                                                                Homeland
                                                                                Security
                                                  JUN 0 1 2012
        MEMORANDUM FOR:               Frank Dcffer
                                      Assistant Inspector General
                                      Infoonation Tec.hnoJogy Audits

        FROM:                         Richard A.  SPire~
                                      DRS Chief I        atio    fficer
        SUBJECT:                      DHS Needs 10 Address Portable Device Security Risks - For Official
                                      Use Only (OIG Project No. 11-148-ITA-DHSJ

        The Department of Homeland Security (DHS) Office of the Chief Information Officer (OCIO) has
        reviewed the findings of the Office of the Inspector General (DIG) draft report 11-148-ITA-DHS,
        DHS Needs to Address Portable Device Security Risks, released March 21, 2012. OCIO's response
        to the OIG 's draft report is as follows :

        Recommendation #1: We recommend that the Chief Information Officer coordinate with the Chief
        Administrative Officer and component CIOs to update their asset management policies to ensure that
        USB thumb drives are recorded as sensitive personal property. In addition, components should
        record USB thumb drives as sensitive personal property in their asset management systems.

        OCIO Response: Concur. The OCIO will coordinate with the OCAO and Component CIOs to
        ensure that their asset management policies arc updated to require that USB thumb drives arc
        recorded as sensitive personal property as required by DHS Per~'onal Pruperly Mcmagemenl
        Directive (MD #0565). In addition. Component ClOs will implement a process to record usn
        thumb drives as sensitive personal property in their asset manag~ment systems.

        Recommendation #2: We recommend that the Chief Information Officer (Cia) enhance the
        department's annual IT security awareness truining to remind users of their responsibilities,
        acceptable behaviors, and a<;~iated risks when u.<;ing government issued portAble devices.

        OCIO Response: Concur. The C IO will ensure that the department 's annual IT security awareness
        tra.ining is enhanced to remind users of their responsibilities, a.eceptable behaviors, and associated
        risks whcn using govcnuncnt issued portable dcviccs.

        Recommendation #3: We recommend that the Chief infonnation Officer work with the ICE CIO to
        ensure compliance with DHS guidance on authentication requirements lur Android and iOS devices.

        OCIO Response: Concur. The ChierT nformation Officer will work wilh the ICE CIO 10 ensure
        compliance with OHS guidance on authentication requirements for Android and iDS devices.
        Currently, Android and iOS devices are being piloted for possible fornlal implementation. If ICE
        decides to formally implement either device. it will be required to comply with the appropriate DHS
        guidance on authentication requirements for the device selected.




                            DHS Needs To Address Portable Device Security Risks 


                                                         Page 20

Appendix C
Major Contributors to this Report

                    Chiu-Tong Tsang, Director
                    Tarsha Cary, Audit Manager
                    Shannon Frenyea, Team Lead
                    Thomas Rohrback, IT Specialist
                    Megan Ryno, Program Analyst
                    Angela Maxwell, IT Auditor
                    Gregory Wilson, II, Management/Program Assistant
                    Charles Twitty, Referencer




                    DHS Needs To Address Portable Device Security Risks

                                         Page 21
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      Chief Information Officer
                      Deputy Chief Information Officer
                      Acting Chief Information Security Officer
                      Director, GAO/OIG Liaison Office
                      Director, Compliance and Technology, DHS, Office of Chief
                         Information Security Officer
                      Branch Chief, Office of Chief Information Security Officer
                      Audit Liaison, DHS/CIO
                      Audit Liaison, DHS/CBP
                      Audit Liaison, DHS/FEMA
                      Audit Liaison, DHS/ICE
                      Audit Liaison, DHS/TSA
                      Audit Liaison, DHS/USCIS
                      Audit Liaison, DHS/USCG

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      DHS Needs To Address Portable Device Security Risks 


                                            Page 22

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
